                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A11060038                                                                         Page 1 of 1



                 We investigated an NSF panelist 1 who allegedly disclosed the identity of another panelist2 to
         the Pe of a declined proposal. 4 There was sufficient evidence to substantiate that the panelist had in
         fact violated his agreement with NSF not to disclose such information. We referred the matter to
         NSF for appropriate action with a report of investigation (attached). NSF reprimanded the panelist
         (attached) and banned him from serving NSF as a reviewer, advisor, or consultant for 11 months.

                   Accordingly, this case is closed.




         4




NSF OIG Form 2 (11102)
-   . .


                                          NATIONAL SCIENCE FOUNDATION
                                               4201 WILSON BOULEVARD
                                              ARLINGTON , VIRGiNiA 22230




                                                 September 26, 2012




          Via email:



          It has come to my attention that you disclosed the identity of another panelist to the principal
          investigator ("PI") of a declined proposal submitted to the National Science Foundationf~SF"
          or the "Foundation"). I am writing to reinforce the need to comply with NSF's policies and
          requirements when serving as a panelist.

          The Foundation relies on the services of reviewers as a linchpin of its merit review process. To
          ensure that reviewers are free to provide candid assessments of proposals during this process,
          NSF keeps reviews and the identities of the panel reviewers confidential to the maximum extent
          possible. Prior to your panel service, you signed NSF Fom1 1230P, Conflict-of-Interests and
          Confidentiality Statement for NSF Panelists, cettifying that you understood NSF _policies related
          to serving on a review panel, including the need to maintain the confidentiality of other
          reviewers on the panel.

          Safeguarding the identity of reviewers and preventing the disclosure of this information is
          essential to ensure that NSF retains the trust of the scientific community and the public at large.
          \\le take the protection of the NSF peer review process very seriously. To this end, and in light
          ofyour improper disclosure, you are prohibited from serving as a reviewer, advisor, or
          consultantfor NSF ru1til September 1, 2013 .

          Please do not hesitate to contact me should you have any questions or concems.
CONFIDENTIAL                                                                        CONFIDENTIAL




       National Science Foundation
        Office of Inspector General




                      Confidential
                 Report of Investigation
                Case Number A11060038
                               May 22, 2012
               This Confidential Report of Investigation is provided to you
                                FOR OFFICIAL USE ONLY.
It contains protected personal information, the unauthorized disclosure of which may result in
personal criminal liability under tl1e Privacy Act, 5 U.S.C. § 552a. This report may be further
disclosed within NSF only to individuals who must have knowledge of its contents to
facilitate NSF's assessment and resolution of this matter. This report may be disclosed
outside NSF only under the Freedom of Information and Privacy Acts, 5 U.S.C. §§ 552 &
552a. Please take appropriate precautions handling this confidential report of investigation.

                                                                            NSF OIG Form 22.b (njo6)
     ..
,_

              CONFIDENTIAL                                                                             CONFIDENTIAL


                                                        Executive Summary

                      The Subject is alleged to have breached reviewer confidentiality by disclosing the
              identity of another panelist to the PI of a declined NSF proposal. Our investigation concludes
              that the preponderance of evidence supports finding that the Subject did breach reviewer
              confidentiality in violation of the terms of his signed NSF Form l230P. We reconm1end N SF
              take appropriate action, including prohibiting the Subject from serving NSF in an advisory
              capacity for an appropriate period of time.

                                                            Background

                      We reviewed an allegation that the PI 1 of a declined NSF proposal (the Proposal/ was
              contacted by a former colleague (the Subject) 3 who identified himself as a reviewer on the panel
              that evaluated the Proposal . It was also alleged that the Subject disclosed the identity of another
              panelist (the Panelist). 4                                                         -


                  Prior to participation on a panel, NSF panelists are expected to review and sign an NSF
          Form 1230P 5 certification and receive a briefing on conflict of interests (COl). Specifically,
          Form 1230P addresses COis as exemplified on the back ofthe form and confidentiality with
          respect to the review process and reviewer names. Form 1230P also includes a specific warning
          that "Unauthorized disclosure of any confidential information could subject your [sic] to
                      6
          sanctions." However, NSF does allow each individual panelist to self-disclose his/her own
          identity but not the identities of others on the panel. 7 Each panelist certifies to statements
          including "I understand I must contact the NSF progran1 officer if a conflict exists or arises
          during my service," and "I will not divulge or use any confidential information, described
          above ...." 8

                                                        OIG Investigation

                   According to NSF records, the Subject participated on the NSF panel that reviewed the
          PI's proposa1. 9 He provided a signed Form 1230P dated approximately one month prior to the
          start of the panel. 10 The program officer also confinned that the panelists, including the
          Subject, received a verbal COl briefing when the panel began.




                 1, NSF onn 1230P.
          6
             Tab l.
          7
            NSF policy is not to disclose the identity of reviewers. By signing Form l230P NSF panelists agree not to
          "divulge or use any confidential information" which includes confidentiality of the review process and reviewer
          names.
          8
            Tab I.
          9
            Tab 2, NSF Form 7 for· · · ·
          10
             Tab 3, the Subject's signed NSF Form l230P. We continued with the program officer that the division typically
          sends the panelists copies ofFonn 1230P (both sides)(Tab 1) by email prior Lo the panel session and expects to
          receive them signed before the panel begins.

                                                                                                                             1
     CONFIDENTIAL                                                                               CONFIDENTIAL


         The Subject's written review of the Proposal included a "Good" rating~ the Panelist's
 review included a "Fair" rating. 11 D1c other two reviewers gave the Proposal "Very Good" and
 "Good" ratings. TI1e Subject and PI live in the same general vicinity in a Midwestern state; the
 Panelist lives in a Southwestern state wl1ich neighbors a state in which the PI presented a talk
 near the time of the panel review. It is unlikely that the Panelist would disclose his identity as
 the panel member giving the lowest rating, leaving the Subject as the most likely source of the
 disclosure as supported by his email correspondence with the PI.

         The PI provided us with email correspondence initiated by the Subject in which he
 offered to meet with her and mentor her on successful proposal preparation. 12 The Subject
 indicated specifically that he had information that was "pretty specific" having seen the "inner
 workings" of the panel. 13 The PI told us she met with the Subject, at which time he pointed out
 the review he had provided and disclosed the identity of the Panelist.

        The PI told us she and the Subject bad previously had a short (~3 months) romantic
relationship which she tenninated 3 years ago. 14 The PI expressed her concern that the Subject's
contact with her about the Proposal may have had an additional motive (i.e., resuming their prior
relationship). Although the Subject in his emails states that his motive is not rekindling the
relationship, he confirms the existence of the past personal relationship. Regardless of his actual
intentions, his emails regarding meeting to discuss the Proposal indicate his intention to share
information with her about tl1e review of the Proposal.

      · We wrote 15 to the Subject asking him to confmn his signature on the Form 1230P and his
attendance at the COl briefing prior to the panel. He confmned both and asserted that he knew
of no COIs that he did not disclose. 16 He also confirmed that he spoke with the PI who he
"happen[ed] to know" and described a conversation with the NSF program officer 17 in which he
was told "it would be okay for me to contact'' the PI. 18 He did not specifically answer whether
he disclosed the identity of any other panelist to anyone outside of the panel.

                                                    Conclusion

       The Subject's response to our letter and the emails obtained from the PI demonstrate that
the Subject initiated contact with the PI to discuss her proposal and the "inner workings" of the
paneL The PI identified the Panelist by name for us when it is unlikely that the Panelist would
have disclosed his own identity as the reviewer providing tl1e lowest rating. Therefore, we
conclude it is more likely than not that the Subject disclosed the Panelist's identity to the PI.


12
    Tab 5.
13
    Tab 5 at 12. Throughout this report we refer to the OIG-geoerated page numbers which appear in the lower right
comer preceded by the case number. The page numbering is sequential from Tab l through Tab 8.
1
  ~ We do not address in this report whether such a relationship warrants consideration as an 1mdisclosed COl based
on an "Other relationship, such as close personal friendship, that you think might tend to affect your judgment or be




1-
seen as doing so by a reasonable person familiar with the relationship."
15
16



l&
    Tab 6.
    Tab 7.

     Tab 7.

                                                                                                                    2
. '
      CONFIDENTIAL                                                                   CONFIDENTIAL



              The preponderance of the evidence indicates that the Subject disclosed the Panelist's
      identity to the PI in violation of the terms of NSF Form 1230P. However, the Subject's
      disclosure of his own participation in the panel is not a violation.

                                             Recommendation

             VVerecornrnendthatNSF:
                   • preclude the Subject from serving NSF in an advisory capacity, including as a
                      panelist or ad hoc reviewer, for an appropriate period of time.


                                Subject's Comments on the Draft Report

             VVe received no cornrnents from the Subject in response to the Draft Report.




                                                                                                      3
